           Office Of Inspector General




September 19, 2005

ALFRED INIGUEZ
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT:        Audit Report - Surface Networks – Intermodal Rail and Highway
                Transportation Between the Pacific and Southeast Areas
                (Report Number NL-AR-05-011)

This report is one in a series of reports from our nationwide audit of bulk mail center
surface transportation. It focuses on intermodal rail and highway transportation
between the Pacific and Southeast. The audit was requested by the vice president,
Network Operations Management (Project Number 04YG013NL006).




Highway trailers “piggy-backed” onto “intermodal” rail flat-cars, departing the Burlington Northern Santa Fe
                             Rail Yard, Los Angeles, California, April 28, 2005.


                                            Background
Bulk mail includes magazines, advertising, and merchandise shipped by major mailers
like publishers, catalog companies, or online retail companies. A system of 21 bulk mail
centers and other facilities nationwide processes it. The Postal Service spends more
than $500 million annually on contracts to transport bulk mail over rail and highway
Surface Networks – Intermodal Rail and Highway                                                      NL-AR-05-011
 Transportation Between the Pacific and Southeast Areas




networks. Contracted routes are controlled by individual Postal Service areas. During
previous work on rail and highway routes in the Pacific Area, area officials identified an
opportunity to save money on rail transportation to Jacksonville, Florida, and Atlanta,
Georgia. This rail transportation is administered by the Pacific Area. The Postal
Service pays for rail service only when it is actually used. Consequently, we examined
the mail volume to determine if the Postal Service could transport mail more
economically using excess space on existing highway contract routes. This report
focuses on rail and highway routes administered by the Pacific and Southeast Areas.

                          Objective, Scope, and Methodology

The objective of this audit was to identify potential savings the Postal Service could
achieve by reducing rail service from Los Angeles, California, to Atlanta, Georgia, and
Jacksonville, Florida, and placing mail in excess space on existing highway
transportation.




             Highway trailer loaded with mail being moved into rail yard for rail transportation.
              Burlington Northern Santa Fe Rail Yard, Los Angeles, California, April 28, 2005.


During our work, we interviewed headquarters, Pacific, and Southeast Area officials;
reviewed relevant Postal Service policies and procedures; interviewed transportation
managers; and observed and photographed operations. We also analyzed rail
transportation to the Southeast Area from the Pacific Area, including 46 rail trips from
Los Angeles to Atlanta and 87 rail trips from Los Angeles to Jacksonville. We
coordinated with Pacific, Southeast, and headquarters officials to consider alternate
highway transportation. We consulted with financial analysts, computer analysts, and
other subject matter experts; evaluated mail volume and the type of mail carried; and



                                                      2
Surface Networks – Intermodal Rail and Highway                                                   NL-AR-05-011
 Transportation Between the Pacific and Southeast Areas




considered service standards. We also discussed our observations and conclusions
with management officials and included their comments where appropriate.

We conducted work associated with this report from March through September 2005, in
accordance with generally accepted government auditing standards, and included such
tests of internal controls that we considered necessary under the circumstances.




                    Highway trailer being lifted onto rail flat-car for rail transportation.
              Burlington Northern Santa Fe Rail Yard, Los Angeles, California, April 28, 2005.

During our audit we examined computer data in management’s Transportation Contract
Support System, Transportation Information Management Evaluation System, and Rail
Management Information System. We did not audit or comprehensively validate the
data; however, we noted several control weaknesses that constrained our work. For
example, the Transportation Information Management Evaluation System had missing
records and inaccurate trailer load volumes. Even though data limitations constrained
our work, we partially compensated by applying alternate audit procedures, including
source document examination, observation, physical inspection, and discussions with
responsible officials.

                                     Prior Audit Coverage



                                                     3
Surface Networks – Intermodal Rail and Highway                                                   NL-AR-05-011
 Transportation Between the Pacific and Southeast Areas




Since September 2002, the Office of Inspector General (OIG) has worked with Postal
Service management to reduce surface transportation. In total, we have issued 16 audit
reports on surface transportation that identified potential savings exceeding
$72.4 million over the life of the eliminated or reduced transportation contracts. For
more detailed information about these audits see Appendix A.

                                            Audit Results

Rail and Highway Service Consolidation

The Postal Service could save approximately $1.3 million on existing highway contracts
by reducing rail shipments from the Pacific Area to Atlanta and Jacksonville. (See
Appendix B.) These savings represent potential funds that could be put to better use
and we will report them as such in our Semiannual Report to Congress.




Highway trailers loaded with mail staged for rail transportation at the Burlington Northern Santa Fe Rail Yard,
                                   Los Angeles, California, April 28, 2005.

Postal Service policy requires transportation managers to balance service and cost.
Our analysis showed that rail shipments could be reduced because excess space exists
on already contracted highway routes. Consequently, managers could reduce rail
shipments by placing mail in this excess highway space, and still maintain service
standards. There would be no rail service termination costs because the Postal Service
pays for rail transportation only when it is actually used.

The Los Angeles and San Francisco Bulk Mail Centers use highway transportation to
send mail to both Atlanta and Jacksonville. We examined Postal Service transportation
records outlined in Appendix B and discussed requirements with Postal Service


                                                      4
Surface Networks – Intermodal Rail and Highway                                   NL-AR-05-011
 Transportation Between the Pacific and Southeast Areas




transportation managers. Based on our examination of records and our discussions
with transportation managers, we concluded:

   •   Trips on highway contract route 30316 from San Francisco to Atlanta generally
       move across the country with 32 to 70 percent cargo space available.

   •   Trips on highway contract route 32211 from San Francisco to Jacksonville
       generally move across the country with 16 to 50 percent cargo space available.

Consequently, we concluded that some mail currently shipped by rail from Los Angeles
to the Southeast Area could be sent to San Francisco for transshipment, allowing the
Postal Service to save money and still meet service standards.

Exit Conference and Subsequent Management Actions

On May 11, 2005, we conducted a formal exit conference with Pacific Area and
headquarters officials to discuss our audit findings. On June 14, 2005, Pacific Area
officials told us that they had rerouted rail volume onto existing highway trips to Atlanta
and Jacksonville to reduce rail traffic.

Recommendation

We recommend the vice president, Pacific Area Operations:

   1. Verify the rerouting of mail on existing highway trips to Atlanta, Georgia, and
      Jacksonville, Florida, in order to reduce rail traffic.

Management’s Comments

In his formal response to our draft report, the vice president, Pacific Area Operations
stated that he had verified management actions and that effective June 14, 2005,
management implemented our recommendation. The vice president also agreed that
our projection of $1.3 million in potential savings was accurate. The vice president’s
comments, in their entirety, are included in Appendix C of this report.

Evaluation of Management’s Comments

The vice president’s comments were responsive to our recommendation. We examined
and validated management’s actions, and applaud management’s rapid implementation
of our recommendation.

The Office of Inspector General (OIG) considers recommendation 1 significant and
closed because of management’s timely action. Consequently, the Postal Service can
close the recommendation in their follow-up tracking system.



                                                   5
Surface Networks – Intermodal Rail and Highway                               NL-AR-05-011
 Transportation Between the Pacific and Southeast Areas




We appreciate the cooperation and courtesies provided by your staff during our audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William P. Galligan
    Paul E. Vogel
    Anthony M. Pajunas
    William J. Brown
    Steven R. Phelps




                                                   6
Surface Networks – Intermodal Rail and Highway                                                                             NL-AR-05-011
Transportation Between the Pacific and Southeast Areas



                                       APPENDIX A. PRIOR AUDIT COVERAGE

                                                                                                                  Number of  Number of   Number
                                                                                      Number of                   Trips With Trips With  of Trips
                                                                             Report      Trips      Potential       Which      Which    Identified
                                                              Report          Final  Identified for Savings      Management Management by Postal
                      Report Name                             Number       Issue Date Elimination Identified       Agreed    Disagreed   Service

Highway Network Scheduling - Pacific Area                   TD-AR-02-003    9/24/2002     158       $4,500,417            76           34       48
Highway Network Scheduling - Northeast Area                 TD-AR-03-002   11/25/2002      18          776,992            10            8        0
Highway Network Scheduling - Capital Metro Area             TD-AR-03-007    3/28/2003      34        1,144,218            20           14        0
Highway Network Scheduling - New York Metro Area            TD-AR-03-008    3/31/2003      32          470,123            12           20        0
Highway Network Scheduling - Southwest Area                 TD-AR-03-010    7/11/2003     249        5,989,082           148          101        0
Highway Network Scheduling - Western Area                   TD-AR-03-013    9/23/2003      70        2,721,530            30           40        0
Highway Network Scheduling - Southeast Area                 TD-AR-03-014    9/26/2003     101       11,352,881            23           24       54
Highway Network Scheduling - Eastern Area                   TD-AR-03-015    9/30/2003     181       10,577,367           128           53        0
Highway Network Scheduling - Great Lakes Area               NL-AR-04-003    3/29/2004      72        5,352,877            48           22        2
BMC Transportation Routes - Great Lakes Area                NL-AR-04-004    9/29/2004      96        7,660,533            49            7       40
BMC Transportation Routes - Eastern Area                    NL-AR-05-003    3/17/2005      35        4,791,570            29            6        0
Intermodal Rail and Highway Transportation - Pacific Area   NL-AR-05-004    3/18/2005       0        1,046,240             0            0        0
BMC Transportation Routes - Southeast Area                  NL-AR-05-005    3/18/2005      52        6,563,582            52            0        0
BMC Transportation Routes - New York Metro Area             NL-AR-05-007    6/09/2005      16        1,499,371            16            0        0
BMC Transportation Routes - Southwest Area                  NL-AR-05-008   08/03/2005      79        7,175,912            76            0        3
BMC Transportation Routes - Capital Metro Area              NL-AR-05-007   09/02/2005      10          803,060            10            0        0


                          Totals                                16                       1,203     $72,425,755           727          329      147


BMC – Bulk Mail Center




                                                                     7
Surface Networks – Intermodal Rail and Highway                                                 NL-AR-05-011
Transportation Between the Pacific and Southeast Areas




                 APPENDIX B. COST SAVINGS CALCULATIONS

          Los Angeles to Atlanta Rail Transportation

                     Cost of 1 rail trip from Los Angeles to Atlanta                       $2,954
                     Less cost to ship mail from Los Angeles to San Francisco                $761
                     Net cost of 1 rail trip from Los Angeles to Atlanta                   $2,193

                     Average rail trip per week is 1.70
                     x 52 weeks per year                                          89 trips per year
                     $2193 x 89 x 4 years                                                $780,708


          Los Angeles to Jacksonville Rail Transportation

                     Cost of 1 rail trip from Los Angeles to Jacksonville                  $3,461
                     Less cost to ship mail from Los Angeles to San Francisco                $761
                     Net cost of 1 rail trip from Los Angeles to Jacksonville              $2,700

                     Average rail trips per week is 1.70
                     x 52 weeks per year                                          89 trips per year
                     $2700 x 89 x 2 years (remaining contract term)                      $480,600



          Total Savings Los Angeles to Atlanta and Los Angeles to Jacksonville

                     Los Angeles to Atlanta Rail Transportation                          $780,708
                     Los Angeles to Jacksonville Rail Transportation                     $480,600

                     Total                                                             $1,261,308


We calculated the average number of rail trips per week by comparing the actual rail shipments with
available capacity on existing highway contract routes and calculating the average rail trips used over the
27-week period reviewed. During this analysis, we examined records from various Postal Service
management systems, including:

    • Rail records for a 27-week period from August 17, 2004, through February 13, 2005.

    • Trailer load volume records for August and September 2004.

    • Current highway contracts for trips from Los Angeles and San Francisco to the Southeast Area.




                                                           8
Surface Networks – Intermodal Rail and Highway           NL-AR-05-011
Transportation Between the Pacific and Southeast Areas




                    APPENDIX C. MANAGEMENT’S COMMENTS




                                                   9
